.^yl

No.

IN THE SUPREME COURT OF THE UNITED STATES

Alex G. Leone,
Applicant,

v.

Essex County Prosecutor’s Office,
Theodore Stephens II,
ROMESH SUKHDEO,

Gwendolyn Williams, and
Roger Imhof,
Respondents.

To the Honorable Samuel A. Alito, Jr.,
Associate Justice of the United States Supreme Court and
Circuit Justice for the Third Circuit

EMERGENCY APPLICATION
FOR INJUNCTION PENDING APPELLATE REVIEW
OR, IN THE ALTERNATIVE,
FOR A WRIT OF CERTIORARI BEFORE JUDGMENT
AND INJUNCTION PENDING RESOLUTION
OR SUMMARY REVERSAL

Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6.law.harvard.edu
(973) 327-3970

Dated: September 29, 2021

1

RULE 29.6 STATEMENT
Pursuant to Supreme Court Rule 29.6, Applicant Alex G. Leone represents that he does
not have any parent entities and does not issue stock.

Respectfully submitted,
/s/ Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6.law.harvard.edu
(973) 327-3970
Dated: September 29, 2021

2

V

TABLE OF CONTENTS (APPLICATION)
Page
RULE 29 STATEMENT

2

TABLE OF AUTHORITIES

5

JURISDICTION

7

FACTUAL BACKGROUND AND ADDITIONAL PROCEDURAL HISTORY...8
REASONS FOR GRANTING THIS APPLICATION
I.

14

Applicant has shown that his First Amendment claim is likely to prevail...!5
A. Respondents’ policy indisputably burdens Applicant’s free exercise

16

B. Respondents’ discriminatory policy is subject to strict scrutiny because it (1)
lacks neutrality and (2) lacks general applicability
18
(1)

Respondent’s policy lacks neutrality in at least three ways

(2)

Respondents’ policy lacks general applicability in at leastthree ways....21

C. Respondents’
unavailing

18

arguments that strict scrutiny does not apply are
.23

(1) Respondents fallaciously attribute dispositive significance to their August 2
decision to shift their work-from-home polices (again)
23
D. Respondents do not even come close to passing strict scrutiny—or any form
of scrutiny
26

II.

(1)

Respondents’ putative interests are far from compelling

(2)

Respondents’ chosen method of advancing their putative interests is
32
totally untailored

(3)

Respondents’ discrimination would not pass even rational basis
The equities weigh strongly in favor of injunctive relief.

26

.34

36

A. Respondents’ burdening of Applicant’s free exercise will continue to cause
irreparable harm absent injunctive relief.
36
B. The balance of hardships and public interest also clearly weigh in favor of
granting this Application
.37
III.

In the alternative, the Court should grant certiorari before judgment or
summarily reverse,
.40

CONCLUSION

40

3

V

TABLE OF CONTENTS (APPENDIX)
Page

Document
Complaint - 2:2 l-cv-12786-SDW-ESK (D.N.J. June 18,2021)

App. 1

Exhibit A - Request for Religious Accommodation (April 26, 2021)

.App. 20

Exhibit B - Typed Text of Request (April 26, 2021).............

App. 24

Exhibit C - Email from Applicant (May 6, 2021)...................

App. 26

Exhibit D - Memorandum from Respondents (May 12, 2021)

.App. 29

Exhibit E - Response Memorandum from Applicant (June 1,2021)

.App. 33

Exhibit F - Reply Memorandum from Respondents (June 9,2021)...

App. 44

Exhibit G - Emails Between Parties (June 10, 2021)........................

App. 47

Notice of Motion for Preliminary Injunction (July 30,2021)

App. 51

Brief Supporting Motion (July 30, 2021).......................... ...............

App. 52

Exhibit A - Declaration Supporting Motion (July 30, 2021)............

App. 69

Exhibit B - Letter from Applicant (June 22, 2021)............................

App. 72

Exhibit C- Email re Respondents’ Work Schedule (July 26, 2021)..

App. 74

Proposed Order (July 30, 2021).........................................................

App. 76

Letter to District Court from Applicant (August 12,2021)................

App. 77

Exhibit A - Letter from Counsel for Respondents (August 11, 2021)

App. 78

Respondents’ Brief Opposing Motion (August 24,2021)....................

.App. 82

Exhibit A-State Judiciary Press Release (May 11,2021).................

App. 108

Exh ibit B - “Certification” of Respondent Imhof (August 24,2021).

App. 116

Reply Supporting Motion (August 31,2021).......................................

.App. 121

Hearing Transcript (September 7,2021).............................................

.App. 150

Order Denying Preliminary Injunction Motion (September 7,2021)

App. 179

Notice of Appeal (September 7,2021).....................................

App. 181

Emergency Motion in Court of Appeals (No. 21-2684)
for Injunction Pending Appeal (September 14, 2021)

.App. 183

Respondents’ Brief Opposing Motion (September 20,2021).,

App. 213

Orders Denying Emergency Motions (September 22,2021)
4

App. 248-51

TABLE OF AUTHORITIES
Cases

Page(s)

Alabama Ass ’n ofRealtors, et al. v. Dept. Health Hum. Servs., etal.,
594 U.S._ (August 26,2021).................................................

24,39

Am. Bev. Ass ’n v. City and Cty. ofS.F., 916 F.3d 749 (9th Cir. 2019) (en banc)

39

Ashcroft v. American Civil Liberties Union, 542 U.S. 656 (2004)

17

Axson-Flynn v. Johnson, 356 F.3d 1277 (10th Cir. 2004)

24

Blackhawk v. Commonwealth, 381 F.3d 202 (3d Cir. 2004)

19,21,22, 23,34,35

Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751 (2014)

18,32

Employment Div. v. Smith, 494 U.S. 872 (1990)

15,23

Fraternal Order of Police v. City of Newark, 170 F.3d 359 (3d Cir. 1999)

passim

Fulton v. City ofPhiladelphia, Pennsylvania, 593 U.S._(June 17, 2021)

passim

Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal,
546 U.S. 418 (2006)....................................................

17,36

Hobbiev. Unemployment Appeals Comm ’n, 480 U.S. 136(1987)

18,37

Holtv. Hobbs, 135 S. Ct. 853 (2015)

18

Mastv. Fillmore Cnty., 594 U.S.__(July 2, 2021)
Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights Comm ’n,
138 S. Ct. 1719(2018).............................................

27,40

16, 19,20, 22,35

Roman Catholic Diocese ofBrooklyn v. Cuomo,
141 S. Ct. 63 (2020) (per curiam)............

passim

Sts. Constantine & Helen Greek Orthodox Church, Inc. v. City ofNew Berlin,
396 F.3d 895 (7th Cir. 2005)..................................................................
Tandon v Newsom, 141 S. Ct. 1294 (2021) (per curiam)
Tenafly EruvAss ’n v. Borough ofTenafly,
309 F.3d 144 (3d Cir. 2002)..........

18
passim

19, 20, 22, 23,26,34,39

Thomas v. Review Bd. ofIndiana Emp’t Security Div., 450 U.S. 707 (1981)

18,35

Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7 (2008)

38,39

5

To the Honorable Samuel A. Alito, Jr., Associate Justice of the United States
Supreme Court and Circuit Justice for the Third Circuit:
This Court has held that when government officials permit themselves discretion
to grant exemptions from their policies for secular reasons, a refusal to grant an exemption
for religious reasons is subject to strict scrutiny. This case presents an astonishing
example of government officials disregarding this important rule, as well as triggering
strict scrutiny in numerous additional ways clearly identified by this Court’s precedents.
For more than a year, Respondents, a local-government employer and its highestranking officials, have judged secular reasons adequate to permit employees to work from
home, and have exercised discretion to permit all employees to do just that, including on
a fulltime basis for prolonged periods. Yet at the very same time, and to this day,
Respondents have judged religious reasons inadequate to permit a single employee to
work from home at all—and in a May 2021 memorandum, explicitly and categorically
prohibited Applicant from working from home for religious reasons to any extent, includ­
ing “in the future.” The religious basis for Applicant’s need to work from home was
explained thoroughly pre-litigation and below; and Respondents have unequivocally
agreed that the sincerity of Applicant’s religious beliefs is undisputed. The free exercise
burden and resulting irreparable harm imposed by Respondents here are thus indisputable.
As explained herein, several facts compound the illegality of Respondents’ totally
untailored discrimination against religion. Applicant mentions just three now. First, the
putative rationale for Respondents’ extreme prohibition on accommodating religious
reasons for working from home consists only of vague assertions stated only at a high
level of generality. Second, Applicant has repeatedly made clear that he is willing to be
physically present for anything required by any job responsibility—that he wishes to work
from home for religious reasons only when doing so would not “cause undue hardship”
for Respondents. And, third, the record is shot through with indicia of hostility to religion.
6

Accordingly, Applicant respectfully requests that the Court order Respondents
not to discipline or otherwise disadvantage Applicant for his free exercise during the
pendency of this appeal. Applicant has no objection to the Court making clear that it is
not enjoining Respondents from disciplining or disadvantaging Applicant, or any
employee, for any act or omission inconsistent with any job responsibility or rule.
JURISDICTION
Applicant filed a complaint in the United States District Court for the District of
New Jersey on June 18, 2021,1 bringing a claim under the First Amendment and a claim
under a provision of state law, and moved for a preliminary injunction on July 30, 2021,2
after Respondents had threatened to double the burden on Applicant’s free exercise on
July 26, 2021.3 The District Court had jurisdiction over this lawsuit under 28 U.S.C. §§
1331 and 1343 and had authority to issue an injunction under28 U.S.C. §§ 2201 and 2202.
Without citing the record or any source of law, the District Court denied
Applicant’s motion for a preliminary injunction on September 7, 2021.4 That day,
Applicant filed a notice of appeal and an emergency motion in the District Court,5 and
filed an emergency motion for an injunction pending appeal in the Court of Appeals on
September 14, 2021.6 The Court of Appeals has jurisdiction over the appeal under 28
U.S.C. § 1292(a). Two judges of the Court of Appeals denied the motion for an injunction
pending appeal on September 22, 2021, without explanation.7
This Court has jurisdiction over this Application under 28 U.S.C. § 1254(1) and
has authority to grant the relief requested under the All Writs Act, 28 U.S.C. § 1651.

l
2
3
4
5
6
7

Appendix to Emergency Motion (“App.”) 1-50.
App. 51.
App. 75.
App. 179-80; App. 172-177 at 23:6-28:11; see also App. 178 at 29:6-9.
App. 181-82. The District Court denied the motion September 23. App. 250-51.
App. 183-212.
App. 248-49.
7

FACTUAL BACKGROUND AND ADDITIONAL PROCEDURAL HISTORY
A. Factual Background
Applicant incorporates the Complaint and its attachments by reference,8 and
briefly recounts the following facts. Respondents are the highest-ranking officials at the
Essex County Prosecutor’s Office, and the office itself, an agency of a state political
subdivision, and have employed Applicant since 2019.9 Since early 2020, Respondents
have exercised discretion to permit employees to work from home for secular reasons
(e.g., to prevent viral transmission).10 For instance, in the District Court, Respondents
confirmed that “out of an abundance of caution” they exercised that discretion to adopt
policies under which “all employees worked from home full-time” for secular reasons for
prolonged periods during the past year.11 Respondents have expressly recognized that
the factual record in this case is undisputed,12 and that record also shows that Respondents
have engaged in multiple such exercises of discretion, including permitting and shifting
different work-from-home schedules for different employees at different times.13
On April 26, 2021, at the very time Respondents were widely permitting
employees including Applicant to work from home for secular reasons,14 Applicant

8

App. 1-50.
App. 2 H 3-7.
10
App. 4 15.
II
App. 86-87. For instance, employees in the “Adult Trial” section of Applicant’s
office were permitted to work from home fulltime during November 2020 into June 2021;
and employees in the “Appellate” section of Applicant’s office were permitted to work
from home fulltime from March 2020 through the date on which Applicant filed a motion
for preliminary injunction. App. 71
10 & 11; App. 4 f 17.
12
App. 223 (Respondents confirming in the Court of Appeals that “[h]ere, the
factual record is not in dispute”).
13
See, e.g., App. 86-87 (Respondents acknowledging that they have shifted their
work-from-home policies around multiple times); App. 71
10 & 11 (providing
uncontroverted testimony on the different work-from-home schedules Respondents used
for different office units at different times); App. 4 fK 15-17.
14
App. 87 (recognizing that in April 2021 Respondents permitted employees to
work from home when “it was deemed necessary” for secular reasons); App. 71 Iff 10 &
11 (Applicant testifying to same); App. 4 15-17; App. 117-18.

9

8

requested that he be permitted to work from home for religious reasons.15 Applicant
submitted a written request for this religious accommodation,16 and made clear that he
requests only that the same “status quo” that permitted work from home for secular
reasons “continue” and be “extended” for the religious reasons provided by Applicant.17
In sum, Applicant’s religion requires him to practice prayer, including aloud and
spontaneously, throughout each day; and his religious belief is that the peace and solitude
required for this practice are impossible in the office.18 Respondents have unequivocally
recognized that there is no dispute over the sincerity of Applicant’s religious beliefs.19
Importantly, in requesting to work from home for religious reasons, Applicant did
not request to be absolved of any job responsibility.20 Applicant’s prayer practice has
never interfered in his work and greatly assists him in his work.21 Applicant expressly
requested to work from home only to the extent it would not “cause undue hardship” for
Respondents.22 Applicant is, and has always been, fully willing to be physically present
for anything required by any job responsibility—including in-person court appearances

15

App. 21-25. Exhibit B of the Complaint (App. 25) is the relevant handwritten text
of Exhibit A (App. 21-23) in typed format. See App. 3 n.l; App. 27. For simplicity,
herein Applicant will cite the text in Exhibit B (App. 25).
16
App. 25.
17
App. 27; see, e.g., App. 51 (making clear that Applicant is requesting “the very
same accommodation” Respondents granted widely for secular reasons); App. 131
(same); App. 142 (“[Applicant] seeks only the exact same accommodation that was
extended to employees for secular reasons for more than a year.”); App. 155 at 6:7-10
(same); App. 171 at 22:3-4 (“I am seeking simply the same exact accommodation that
was extended to people for secular reasons.”).
18
App. 5-6 TH119-27; App. 71
13-14; App. 207 n.l 5 (citing Bible verses relevant
to Applicant’s prayer practice after Respondents had repeatedly suggested it was
necessary to dissect “a specific provision in Christianity” in order to evaluate the merits
of Applicant’s claim); see also I Peter 3:15-17.
19
See, e.g., App. 88 (Respondents “do not contest that Applicant’s religious beliefs
are sincerely held.”))
20
App. 25; App. 27.
21
App. 5 | 23; App. 71 If 17.
22
App. 25 (requesting “to be physically present at [the] office . . . when
accommodating this religious need would cause undue hardship”).
9

or witness interviews, or any other obligation.23 All such obligations proceeded normally
including when Applicant was permitted to work from home for secular reasons.24
Nonetheless, in a policy memo dated May 12, 2021,23 Respondents categorically
denied Applicant’s request to work from home for religious reasons, brooking not even a
moment of accommodation of his religious practice—then, now, or even “in the future. ??26
In other words, at the very time Respondents were already widely permitting employees
including Applicant to work from home for secular reasons,27 Respondents singled out
religion as never an adequate basis to work from home to any extent, ever,28 This
discriminatory policy has put Applicant to the choice of forgoing his prayer practice on
all work days or being disciplined by his employer, and thus burdens Applicant’s free
exercise and routinely inflicts irreparable, and other harm, on him.29 Applicant has
avoided irreparable harm on at least some work days by using dwindling “sick” or
“vacation” time;30 Applicant often works all the same on such days but from home.31
Respondents’ sole rationale for their extreme prohibition on accommodating
religious reasons for working from home consisted of a single paragraph of vague
assertions.32 Pre-litigation, Applicant presented Respondents with pointed criticism of

23

App. 71 TJ 9; App. 12-13 62(a); cf. Sherbert v. Verner, 374 U.S. 398, 410 (1963)
(“This is not a case in which an employee’s religious convictions serve to make him a
nonproductive member of society.”).
24
App. 70-71 TUI 3, 7 & 17 (“My prayer practice has never interfered in my work.”);
App. 13-14 | 65; App. 37 (“[F]or instance, I was scheduled to work from home but
physically present to observe witness interviews on March 11, and March 25, 2021.”).
25
App. 30-32.
26
App. 31.
27
App. 86-87; App. 71
10 & 11; App. 4
15-17; see supra, note 14.
28
App. 31 (categorically denying Applicant’s “[religious] request to work from
home” even as to “the future”).
29
App 71
13-16.
30
App. 65-66; App. 73.
31
App. 66.
32
App. 31-32.
10

this putative rationale for religious discrimination,33 but Respondents refused to provide
any substantive response and “st[oo]d by” that putative rationale.34 (Respondents also
inexplicably refused to respond when Applicant asked if there was any “process for
appealing” the policy that categorically discriminated against his religious request.)35 As
explained below, the record makes clear that Respondents’ vague assertions cannot justify
their categorical religious discrimination against Applicant.36 If this was clear on May
12, 2021, it is even clearer today: The uncontested factual record shows that none of the
purported reasons Respondents gave for categorically prohibiting Applicant’s prayer
practice has ever applied in Applicant’s employment.37 What’s more: The only evidence
that Respondents have offered in litigation in support of their religious discrimination
consists of (i) a tangentially-relevant press release;38 and (ii) an apparently deficient
“certification” of one defendant,39 which simply re-asserts Respondents’ vague interests
at a high level of generality and does not controvert any material fact.40
Respondents suggested below that Title VII governs this case;41 and their legal
arguments have relied heavily on “accommodations” “offered” Applicant at the time they
singled out his religious request for disfavored treatment in the May 12 memorandum.42

33

App. 34-43.
App. 47.
35
App. 47.
36
App. 70-71 Tl 3-7 & 17; App. 7-14 HU 35-67; App. 35-39; App. 63-65; App. 13941; App. 200-204.
37
App. 70-71 UK 3-7 & 17; see App. 223 (“[T]he factual record is not in dispute.”).
38
App. 109-15.
39
App. 117-20. This “certification” apparently fails to comply with 28 U.S.C. §
1746. See App. 117-20 (failing to certify “under penalty of perjury,” mentioning only
non-descript “punishment”); see also L. Civ. R. 7.2(a). Regardless, as explained herein,
the certification contains only vague assertions or uncontested observations and does not
controvert any material fact in the record.
40
App. 223.
41
See, e.g., App. 229 (asserting that Fulton, Tandon, and Diocese of Brooklyn “have
no bearing on this case”); App. 234-36 (discussing an unpublished Title VII case).
42
The “accommodations” are listed at App. 32 and explained at App. 143-45. In
sum, they consist in (i) nothing; (ii) requiring Applicant to commute to a 400-acre public
34

11

B. Additional Procedural History
On July 26, 2021, Respondent Sukhdeo announced that “starting Monday, August
2, 2021” for the immediate future there would “no longer be” a schedule that permits
Applicant to work from home even for secular reasons.43 Accordingly, on July 30, 2021,
Applicant moved for a preliminary injunction,44 the denial of which is on appeal.45 The
change in status quo threatened on July 26 came to pass on August 2 and increased
Respondents’ burdening of Applicant’s free exercise by 100%, at least doubling the
number of days on which Respondents prohibit Applicant’s prayer practice.46
Prior to completion of briefing on the preliminary injunction motion, Applicant
notified the District Court that Respondents privately asserted to Applicant that the
motion “is frivolous” and attempted to bully him into withdrawing the motion by
threatening to “seek sanctions” against him.47 Applicant also informed the District Court
that Respondents indicated at that time they would be disputing facts; and, to the extent
any material facts were disputed, Applicant “respectfully requested] the opportunity to

park each time he wishes to engage in his prayer practice; and (iii) confining Applicant
to a windowless soundproof room fitted with security cameras. App. 32. The undisputed
factual record shows that these are better described as anti-accommodations, which not
only would require Applicant to forgo his prayer practice, but which would also impose
significant burdens on him. See App. 71 ^ 13 & 15; App. 11-12 55-59; App. 143-45.
43
App. 75. The “First Assistant” is Respondent Sukhdeo. See App. 2 4.
44
App. 51.
45
App. 181-82.
46
As noted above, supra, note 14, Respondents exercised discretion to shift their
work-from-home policies around multiple times. On July 26, when Respondent Sukhdeo
announced the most recent shift in Respondents’ work-from-home policies, Applicant
was permitted to work from home for secular reasons at least half of the time, see App.
27, and moved for a preliminary injunction on the early morning of a day he was working
from home, see App. 51. The motion filed below sought to preserve the status quo on that
day and sought virtually the same relief Applicant seeks in this Court. See App. 76. A
100% increase in the burdening of Applicant’s free exercise occurred as a result of
Respondents’ August 2 policy change: Whereas Applicant was permitted to work from
home at least half the time for secular reasons before the change, Applicant was not
permitted to work from home at any time after the change because Respondents’ policy
of categorically discriminating against religion remained in effect. See App. 31; App. 51.
47
App. 77-81.
12

subpoena a small number of witnesses, if not one witness, and present testimony on any
disputed material facts.”48 Respondents ultimately did not dispute any material fact49—
nor did they even attempt to defend their apparently unethical assertion that the motion
was “frivolous”50—and the Court did not invite presentation of additional evidence either
before or during the brief September 7, 2021 hearing it held on the motion.
At that hearing, the District Court repeatedly rushed Applicant’s oral argument;51
did not permit oral argument on certain preliminary injunction factors;52 asked zero
questions of Respondents; and issued a brief oral ruling, in which the Court assumed facts
not in the record,53 made several clear legal errors,54 and denied the motion without
opinion.55 In its entire ruling, the District Court did not cite a single legal authority or the

48

App. 77.
App. 223 (Respondents confirming in the Court of Appeals that “[h]ere, the
factual record is not in dispute”).
50
See App. 148 n.22 (further explaining why this assertion is apparently unethical).
51
See App. 161 at 12:20-24; 163 at 14:1-7; 164 at 15:5-10; 167 at 18:7-11.
52
App. 164 at 15:5-10.
53
See, e.g., App. 173 at 24:10-17 (e.g., referencing nonexistent trials) & 174 at 25:514 (quoting from an apparently non-existent source regarding relief not sought).
54
See, e.g., App. 172 at 23:25-24:9 & App. 176 at 27:21-24 (creating a pandemic
exception to the Constitution); App. 173-74 at 24:25-25:2 (questioning whether
Applicant’s undisputed religious beliefs are “truly” the case); id. (stating a legal test that
has no basis in Supreme Court or any precedent); id. at 24:5-17 (analyzing whether
Respondents’ discretionary policies make sense at an extremely high level of generality,
such as by referencing “everyone throughout the country,” “our offices,” and “counties
in the state”); App. 174 at 25:3-5 (illicitly shifting the burden of narrow tailoring to
Applicant); id. at 25:9-14 (conflating Applicant’s individual request for an
accommodation with “control” over an entire “office”); App. 175 at 26:12-16 (apparently
assuming that additional diversity in the kinds of secular exemptions permitted by
Respondents’ discretionary policies is required to make their discretion subject to strict
scrutiny); App. 175-76 at 26:19-27:7 (recognizing that in “freedom of religion being
curtailed, irreparable harm ... is pretty much automatic” but going on to assert that the
Court “do[es]n’t feel” there is irreparable harm in this case); App. 176-77 at 27:25-28:2
(recognizing that Applicant’s claim “might find great success” but ruling that the claim
does not have a likelihood of success on the merits); cf. Roman Catholic Diocese of
Brooklyn v. Cuomo, 141 S. Ct. 63, 70 (2020) (Gorsuch, J., concurring) (“What could
justify so radical a departure from the First Amendment’s terms and long-settled rules
about its application?”).
55
See App. 178 at 29:6-9.
49

13

record even one time; and it was unclear whether the District Court was familiar with the
applicable precedents of this Court,56 or basic record documents.57
After appealing, Applicant filed an emergency motion for an injunction pending
appeal with the Court of Appeals on September 14, 2021,58 which was denied without
explanation on September 22, 2021.59 As a last resort, Applicant now seeks relief here.
REASONS FOR GRANTING THIS APPLICATION
The All Writs Act, 28 U.S.C. § 1651(a), authorizes an individual Justice or the
Court to issue an injunction when (1) the circumstances presented are “critical and
exigent;” (2) the legal rights at issue are “indisputably clear;” and (3) injunctive relief is
“necessary or appropriate in aid of [the Court’s] jurisdictio[n].” Ohio Citizens for
Responsible Energy, Inc. v. Nuclear Regulatory Comm 'n, 479 U.S. 1312 (1986) (Scalia,
J., in chambers) (quoting Fishman v. Schaffer, 429 U.S. 1325, 1326 (1976) (Marshall, J.,
in chambers) (alterations in original); Communist Party of Ind. v. Whitcomb, 409 U.S.
1235 (1972) (Rehnquist, J., in chambers); 28 U.S.C. § 1651(a)); see Supreme Court Rules
20 & 22. The Court has discretion to issue a temporary injunction “based on all the
circumstances of the case” without its order “be[ing] construed as an expression of the
Court’s views on the merits” of the underlying claim. Little Sisters of the Poor Home for
the Aged v. Sebelius, 571 U.S. 1171 (2014).

56

Compare, e.g., App. 173-74 at 24:25-25:2 (“The issue is whether or not his
religious practice is truly being prevented or not being accommodated in any way.”
(emphases added)), with Fulton v. City of Philadelphia, Pennsylvania, 593 U.S.__,__
(slip, op) at 10 (June 17, 2021) (“That misapprehends the issue.”).
57
Compare, e.g., App. 174 at 25:18-21 (asserting that “the preliminary injunctive
relief that is being sought is . . . that Mr. Leone does not have to go into the office unless
he feels it is necessary”), with App. 76 (proposing relief precisely parallel to that affirmed
in Fraternal Order and clarifying that the District Court is “not enjoin[ing] anything else,
including disciplining Applicant or any employee for any act or omission inconsistent
with any job duty, obligation, rule, or responsibility”) and supra, note 17; see App. 25.
58
App. 183-212.
59
App. 248-49.
14

A Circuit Justice or the full Court may also grant injunctive relief “[i]f there is a
‘significant possibility’ that the Court would” grant certiorari “and reverse, and if there is
a likelihood that irreparable injury will result if relief is not granted.” Am. Trucking
Ass’ns, Inc. v. Gray, 483 U.S. 1306, 1308 (1987) (Blackmun, J.); see also Lucas v.
Townsend, 486 U.S. 1301, 1304 (1988) (Kennedy, J., in chambers) (considering whether
there is a “fair prospect” of reversal). This Court has previously granted injunctive relief
when applicants “have shown that their First Amendment claims are likely to prevail, that
denying them relief would lead to irreparable injury, and that granting relief would not
harm the public interest.” See, e.g., Roman Catholic Diocese of Brooklyn v. Cuomo, 141
S. Ct. 63, 66 (2020) (per curiam); Tandon v. Newsom, 141 S. Ct. 1294, 1296-98 (2021).
I.

Applicant has shown that his First Amendment claim is likely to prevail.
The First Amendment to the United States Constitution provides in relevant part:

“Congress shall make no law respecting an establishment of religion, or prohibiting the
free exercise thereof. . . .” The Free Exercise Clause governs not only Congress and its
laws, but also States and their agencies and policies as well. See, e.g., Church of the
Lukumi Babalu Aye, Inc. v. City ofHialeah, 508 U.S. 520, 531 (1993) (citing Cantwell v.
Connecticut, 310 U.S. 296, 303 (1940)). Although this Court has held that free exercise
concerns do not generally affect the obligation to comply with a valid and neutral law of
general applicability, Employment Div. v. Smith, 494 U.S. 872, 879 (1990), “[a] law
burdening religious practice that is not neutral or not of general application must undergo
the most rigorous of scrutiny,” Lukumi, 508 U.S. at 546. A government policy can fail to
be neutral or generally applicable in multiple ways, including:
•

Lacking neutrality because it “singlefs] out [religious] worship for especially
harsh treatment,” see Diocese ofBrooklyn, 141 S. Ct. at 66;

15

•

Lacking neutrality because it “presupposes the illegitimacy of religious beliefs
and practices,” see Masterpiece Cakes hop. Ltd. v. Colo. Civil Rights Comm ’n, 138
S. Ct. 1719, 1731 (2018);

•

Lacking neutrality because it “discriminate[s] on its face” regarding religion, see
Lukumi, 508 U.S. at 533;

•

Lacking general applicability because it “prohibits religious conduct while
permitting secular conduct that undermines the government’s asserted interests in
a similar way,” Fulton v. City ofPhiladelphia, Pennsylvania, 593 U.S.

__(slip

op.) at 6 (June 17, 2021);
•

Lacking general applicability because it “treat[s] any comparable secular activity
more favorably than religious exercise,” see Tandon, 141 S. Ct. at 1296; and

•

Lacking general applicability because it permits “individualized exemptions,” see
Fulton (slip op.) at 6, or because it “creates a categorical exemption for individuals
with a secular objection but not for individuals with a religious objection,” see
Fraternal Order ofPolice v. City ofNewark, 170 F.3d 359, 365 (3d Cir. 1999).
Any one of the above triggers suffices to subject a government policy that burdens

religious exercise to strict scrutiny. Here, as explained below, each of these triggers
subjects Respondents’ religious discrimination against Applicant to strict scrutiny.
A. Respondents’ policy indisputably burdens Applicant’s free exercise.
Applicant has stated unequivocally under penalty of perjury, and Respondents
have confirmed that they do not dispute:60
When physically present in the office, I am forced to forgo
a prayer practice I engage in throughout every work day....
My religious belief is that the peace and solitude required
for this practice are impossible in the office .... Working
at my nearby home is generally a sure way to ensure I can
See, e.g., App. 223 (Respondents confirming in the Court of Appeals that “[h]ere,
the factual record is not in dispute”).
60

16

engage in my required prayer practice as well as attend to
all work responsibilities efficiently.16'1
Respondents, however, have categorically prohibited Applicant from working
from home in order to accommodate this religious practice.62 That discriminatory policy
choice prevents Applicant, on fear of discipline from Respondents, from engaging in his
prayer practice during every work day: “When physically present in the office,
[Applicant] [is] forced to forgo [the] prayer practice” as a result of his religious belief
about the peace and solitude it requires;63 and, although Applicant has no burden to show
it,64 forcing Applicant to commute to a public park or be confined a windowless room
with surveillance cameras,65 as Respondents have “generously]” proposed, 66 tc would
also force [Applicant] to forgo this practice, including the spontaneous aspects of it”67 or
the connection to “the handiwork of the Creator” that it requires.68 See, e.g., Fulton (slip
op.) at 4-5 (ruling “it is plain” that “putting [a religious adherent] to the choice of
curtailing its mission or approving relationships inconsistent with its [religious] beliefs”
burdens free exercise); Holt v. Hobbs, 135 S. Ct. 853, 862-63 (2015) (recognizing that

61

App. 71 H 13-17.
App. 31.
63
App. 71 f 13; see also App. 5-6 19-27.
64
See, e.g., Gonzales v. O Centro Espirita Beneficente Uniao do Vegetal, 546 U.S.
418, 429 (2006); Ashcroft v. American Civil Liberties Union, 542 U.S. 656, 666 (2004).
65
See App. 32; see also, e.g., App. 119f 10 (attempting to explain why Respondents
believe Applicant should feel comfortable engaging in his prayer practice in a windowless
room fitted with security cameras); supra, note 42.
66
See App. 102 (asserting that these “accommodations” are “generous”).
67
App. 71 U 15.
68
App. 5 H 21. These “accommodations” also contradict Respondents’ putative
rationale for categorically denying Applicant’s religious request to begin with—for
instance, by nonsensically permitting Applicant to be physically out of the office to range
“a four hundred (400) acre [public park] ... so long as it does not adversely impact [his]
work responsibilities,” but never permitting Applicant to be at his nearby home, where he
can actually pray and work consistent with his job responsibilities, on the very same
condition. See App. 31; App. 11-12 ^ 58; App. 71
13-17.
62

17

“put[ting] [a religious adherent] to [a] choice” between religious exercise and penalties
“easily satisfie[s]” the inquiry whether his free exercise is burdened, even substantially).
Accordingly, Respondents’ putting Applicant to a choice “between following the
precepts of [his] religion and forfeiting [work], on the one hand, and abandoning one of
the precepts of [his] religion in order to accept work, on the other hand” is a textbook
example of burdening free exercise. See, e.g., Hobbie v. Unemployment Appeals Comm ’n
ofFla., 480U.S. 136, 140 (1987) (quoting Sherbert v. Verner, 374 U.S. 398, 404 (1963));
Thomas v. Review Bd. of Indiana Employment Security Div., 450 U.S. 707, 717 (1981);
see also, e.g., Sts. Constantine & Helen Greek Orthodox Church, Inc. v. City of New
Berlin, 396 F.3d 895, 900 (7th Cir. 2005) (observing that informal Christian practices are
more vulnerable “to subtle forms of discrimination”). And “it is not for [courts] to say
that [Applicant’s] . . . religious beliefs are mistaken or insubstantial. Instead, [thei]r
‘narrow function ... in this context is to determine’ whether the line drawn reflects ‘an
honest conviction.’” See Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751, 2779
(2014) (quoting Thomas, 450 U.S. at 716); Fulton (slip op.) at 5 (quoting Thomas, 450
U.S. at 714). Here, there is no dispute that it does.69 See id.
B. Respondents’ discriminatory policy is subject to strict scrutiny because it
(1) lacks neutrality and (2) lacks general applicability.
(1)

Respondent’s policy lacks neutrality in at least three ways:

a. Respondents’ policy memorandum makes clear: Religion can never be an
adequate basis for a work-from-home accommodation, to any extent, neither
now nor “in the future. «70 Respondents thus “singlefd] out [religious] worship
for especially harsh treatment,” Diocese of Brooklyn, 141 S. Ct. at 66, at the

69
70

App. 223 (Respondents confirming that “the factual record is not in dispute”).
App. 31.
18

very time they were already granting for secular reasons the very
accommodation requested by Applicant.71 The only plausible explanation for
this striking lack of neutrality is hostility to religion, hostility shockingly
evident even in Respondents’ briefing below.72

71

App. 86-87; App. 71 ffl[10& 11; App.
15-17.
App. 90, 91 & 102 (derisively referring to Applicant’s religious need to pray in
scare quotes, as a “need,” multiple times); App. at 88 (derisively referring to Applicant’s
prayer practice as a “moving” “target”). See, e.g., Masterpiece Cakeshop, Ltd. v. Colo.
Civil Rights Comm’n, 138 S. Ct. 1719, 1729 (2018) (recognizing that government
officials disparage religion “by characterizing it as merely rhetorical—something
insubstantial [or] even insincere”).
In their opposition in the Court of Appeals, Respondents again crudely
characterized Applicant’s religious practice. See App. 237. Respondents apparently
ignorantly conflate praying at all (simpliciter) with praying in accordance with the
relevant prayer practice. See App. 237 (apparently ascribing significance to the fact that
Applicant was not commanded by Respondents not to “pray in the office in any manner
at all”); see also App. 5-6
19-27 (describing the relevant prayer practice); App. 71 ^
13-14 (same); App. 207 n.l 5. And they apparently attempt to invent a new and draconian
legal standard. See App. 240 (apparently suggesting that the relevant legal question is
whether all religious exercise is “completely prohibited” by Respondent’s policy). But
it is clear that the relevant question is whether Respondents’ policy burdens religious
conduct, not whether it “completely prohibits” religious conduct. See, e.g., Fulton (slip
op.) at 5; Tenafly Eruv Ass’n v. Borough ofTenafly, 309 F.3d 144, 170 (3d Cir. 2002)
(“[T]here is no[t] [even a] substantial burden requirement when government discriminates
against religious conduct.”); Blackhawk v. Commonwealth, 381 F.3d 202, 212 (3d Cir.
2004) (rejecting the argument that a government policy “should not be subjected to strict
scrutiny . . . because it does not prohibit [a religious adherent] from engaging in
religiously motivated conduct but merely obligates him to pay a . . . fee”).
Separate from the hostility to religion evident in their briefing, Applicant
respectfully submits that Respondents’ other actions and choices of language cited herein
are more than sufficient to prove Respondents’ religious animus. See, e.g., Diocese of
Brooklyn, 141 S. Ct. at 66; Masterpiece, 138 S. Ct. at 1730 (“Another indication of
hostility is the difference in treatment between [Applicant’s request to work from home
for religious reasons] and the [treatment of employees] who [were widely permitted to
work from home for secular reasons].”); id. (recognizing that government officials acting
with hostility toward religion “had treated [non-religious rationales] as legitimate, but
treated [a religious rationale] as illegitimate”); compare, e.g., App. 86-87, App. 71 ffl[ 10
& 11, App. 4 Kf 15-17 and App. 117-18 (Respondents broadly and repeatedly treating a
secular rationale for working from home as legitimate), with App 31 (Respondents
treating a religious rationale for working from home as always illegitimate, even “in the
future”).
“[.EJven slight suspicion [of] animosity to religion or distrust of its practices
[requires that] all officials must pause to remember their own high duty to the Constitution
and to the rights it secures.” Church of the Lukumi Babalu Aye, Inc. v. City ofHialeah,
508 U.S. 520, 547 (1993) (emphasis added). Respondents disregard this duty.
72

19

b. Respondents’ extreme judgment that religion can never justify permitting
Applicant a work-from-home accommodation, even “in the future, «73 shows
that they “presuppose[] the illegitimacy of religious beliefs and practices.”
See Masterpiece, 13 8 S. Ct. at 1731; Tenafly EruvAss 'n v. Borough ofTenafly,
309 F.3d 144, 168 (3d Cir. 2002) (quoting Lukumi, 508 U.S. at 537).
Respondents’ otherwise-inexplicable refusal to respond when asked about a
“process for appealing” this extreme judgment shows the same.74 See id.
c. In addition to singling out Applicant’s religious rationale for working from
home for far harsher treatment than Respondents’ widely-deployed secular
rationale, Respondents’ policy memorandum discriminates on its face against
religion, stating explicitly and categorically that the “[religious] request to
work from home . . . presently or in the future is denied, „ 75 sufficing
independently to trigger strict scrutiny. See, e.g., Lukumi, 508 U.S. at 533.
Therefore, Respondents’ May 12 “decision to provide medical exemptions while
[categorically] refusing [a] religious exemption^ is sufficiently suggestive of
discriminatory intent.” See Fraternal Order, 170 F.3d at 365.76 “[T]he neutrality inquiry

73

App. 31.
App. 47. Respondents’ dystopian tactic raises significant due process concerns.
75
App. 31 (emphasis added). To the extent Respondents’ attempt to obfuscate the
fact that “the request” is indisputably “the religious request,” see, e.g., App 25; App. 30,
they disregard this Court’s precedent. See, e.g., Lukumi, 508 U.S. at 533 (“A law lacks
facial neutrality if it refers to a religious practice without a secular meaning discernible
from the language or context.”); id. at 522-34 & 537 (making clear that it is necessary to
interpret the words of a document to determine whether the document is facially neutral).
76
Fraternal Order “assume[d] that an intermediate level of scrutiny applie[d]”
partially because the court believed the government’s “actions [could not] survive even
that level of scrutiny.” 170 F.3d at 366 n.7. (As explained herein, the same is true here.)
Fraternal Order also assumed an intermediate level of scrutiny partially because that case
“arose in the public employment context.” Id. Since Fraternal Order was decided, this
Court in Fulton made clear that even when the government is acting as a manager—and
even a manager of its very own employees or contractors—the First Amendment’s
requirements of neutrality and general applicability apply in full force nonetheless. See
Fulton (slip op.) at 8 (citing, e.g., Garcetti v. Ceballos, 547 U. S. 410, 418-420 (2006)).
74

20

leads to one conclusion.” See, e.g., Lukumi, 508 U.S. at 542. Strict scrutiny applies. See,
e.g., Diocese ofBrooklyn, 141 S. Ct. at 66-67.
(2)

Respondents’ policy lacks general applicability in at least three ways.

a. Respondents have “prohibit[ed] religious conduct,” see, Fulton, (slip op.) at 6,
i.e., working at home for religious reasons even “in the future, »77 while
permitting secular conduct, i.e., working from home for secular reasons,78
which “undermines the government’s asserted interests in a similar way”—in
fact, in the same exact way.79

See id.\ see also, e.g., Blackhawk v.

Commonwealth, 381 F.3d 202, 211 (3d Cir. 2004) (triggering strict scrutiny
because the “[secular] exemptions [made] available [by the government]
undermine[d] the interests” the government claimed to be pursuing).
b. Respondents treat the activity of working from home for secular reasons,
which they permit widely when they so choose,80 more favorably than the
same exact activity undertaken for religious reasons, which they have chosen
to prohibit categorically. 81

See, e.g., Tandon, 141 S. Ct. at 1296

(“Comparability is concerned with the risks various activities pose . . . .”). In
other words, Respondents have “considered] the particular reasons” for

And when the government breaches either of those requirements, such as with a system
of discretionary exemptions that permits discrimination against religion, or intentionally
disfavoring religion, strict scrutiny applies. See, e.g., id. at 8 (recognizing that, as here,
“[n]o matter the level of deference” the government’s policy could not survive); id. at 13.
77
App. 31.
78
App. 86-87; App. 71 HI 10 & 11; App. 4 HH 15-17.
79
See, e.g., App. 27 (requesting that the same “status quo” that permitted work from
home for secular reasons “continue” for Applicant’s religious reasons); App. 51 (making
clear that Applicant is requesting “the very same accommodation” Respondents granted
widely for secular reasons); App. 131 (same); App. 142 (“[Applicant] seeks only the exact
same accommodation that was extended to employees for secular reasons for more than
a year.”); App. 155 at 6:7-10 (same); App. 171 at 22:3-4 (“I am seeking simply the same
exact accommodation that was extended to people for secular reasons.”).
80
App. 86-87; App. 71 HI 10 & 11; App. 4 HI 15-17; see supra, note 14.
81
App. 31.
21

equivalent conduct, see Fulton (slip op.) at 5-6, and have unfavorably
distinguished religious reasons from secular reasons; 82 Respondents’
“practice [i]s to disfavor the religious basis of [Applicant’s] objection,” see
Masterpiece, 138 S. Ct. at 1731.
c. Respondents’ discriminatory policy choice was undertaken in the context of
their system of “discretionary exemptions.” See, e.g., Fulton (slip op.) at 810; Blackhawk, 381 F.3d at 209; Fraternal Order, 170 F.3d at 365.83
Respondents have arbitrary discretion to favor secular reasons for working
from home over religious reasons84—and they have in fact used their
discretion in this manner to burden Applicant’s free exercise:85 Respondents
“ha[ve] made clear” that they “ha[ve] no intention” of granting an exemption

Compare, e.g., App. 86-87 and App. 71 ^ 10 & 11 (Respondents broadly and
repeatedly treating a secular rationale for working from home as legitimate), with App 31
(Respondents treating a religious rationale for working from home as always illegitimate,
even “in the future”).
83
Respondents apparently make both individualized and categorical exemptions.
Compare, e.g., App. 4 ^ 16-17 & App. 71
10-11 (Respondents creating different
work-from-home policies based on individual work units) and App. 103 (apparently
distinguishing work-from-home policies based on employee “level”), with App. 86-87
(Respondents admitting they categorically permitted “all employees [to] work[] from
home full-time” for secular reasons) and App. 31 (Respondents categorically refusing to
accommodate religious reasons for working from home even “in the future”).
Regardless, it is clear that either kind of exemption is constitutionally suspect—
and that categorical discrimination in exemptions like that certainly at issue here can be
even more problematic than individualized exemptions: “[I]t is clear from [Smith and
Lukumi] that th[is] Court’s concern was the prospect of the government’s deciding that
secular motivations are more important than religious motivations. If anything, this
concern is only further implicated when the government does not merely create a
mechanism for individualized exemptions, but instead, actually creates a categorical
exemption for individuals with a secular objection but notfor individuals with a religious
objection.” Fraternal Order, 170 F.3d at 365 (emphasis added); see also, e.g., Tenafly
Eruv, 309 F.3d at 166; Blackhawk, 381 F.3d at 212.
84
See, e.g., App. 86-87; App. 71
10 & 11; App. 4 ^[ 15-17.
85
Compare, e.g., App. 31 (Respondents exercising their discretion to deny
Applicant a work-from-home accommodation, even “in the future,” and even at the very
time they were widely permitting work-from-home accommodations for secular reasons),
with App. 86-87 (Respondents recognizing that under their exercise of discretion “all
employees worked from home full-time” for secular reasons).
82

22

to Applicant for religious reasons. See Fulton (slip op.) at 7. This is precisely
the kind of discretionary system that makes government officials’ actions
subject to strict scrutiny, because this is precisely the kind of discretionary
system which squarely implicates—and, here, actualizes—the Court’s
concern that the government will engage in religious discrimination. See, e.g.
Fulton (slip, op.) at 10; see also, e.g., Blackhawk, 381 F.3d at 211; Fraternal
Order, 170 F.3d at 363 (“[T]he plaintiffs are entitled to a religious exemption
since the [government] already makes secular exemptions.”).
C. Respondents’ arguments that strict scrutiny does not apply are unavailing.
Any one the reasons discussed above independently suffices to show that
Respondents’ policies are not neutral and generally applicable. And “Smith, Lukumi, and
Fraternal Order ofPolice point the way to the appropriate level of scrutiny in this case.”
See Tenafly Eruv, 309 F.3d at 167. Respondents attempted to avoid this conclusion with
a series of fallacious arguments in the lower courts.86 Applicant will address only one
now, which implicates this Court’s recent precedents.
(1)

Respondents fallaciously attribute dispositive significance to their
August 2 decision to shift their work-from-home polices (again).

Respondents asserted below that because some or all employees “were required
to return [physically] to work on August 2, 2021”—or because Respondents are not at
this moment granting exemptions to permit people to work from home for secular
reasons—their policies are neutral and generally applicable.87 This fallacious argument,

86

See, e.g., App. 124-27, 130-32, 141-45 & 206-08 (refuting these fallacies).
App. at 96. Despite making this argument in opposing the preliminary injunction
motion, neither in briefing nor at oral argument did Respondents cite Fulton—nor did the
District Court’s ruling and order. See App. 84; App. 172-77 at 23:6-28:11.
It is unclear whether Respondents’ August 2 shift in their work-from-home
policies was made in good faith. Cf. infra, note 91. But their intentions in that decision
do not affect the analysis here. See Fulton, (slip op.) at 10; Tandon, 141 S. Ct. at 1297.
87

23

however, “misapprehends the issue:” The argument—actually, stronger versions of it—
is foreclosed twice over. See Fulton, (slip op.) at 10; Tandon, 141 S. Ct. at 1297.
In Fulton, this Court made clear that having “a formal mechanism for granting
exceptions”88 at all “renders [the government’s] policy not generally applicable,
regardless whether any exceptions” are currently given or even whether any exceptions
ever have been given. Fulton, (slip, op.) at 10. This is so because the potential for
exemptions permits the government “to decide which reasons for not complying with [its]
policy are worthy of solicitude.” Id. Here, Respondents’ in fact decided that secular
reasons are worthy of solicitude but that religious reasons are not and never are. 89 See
id. Moreover, although Respondents have made clear that they think a religious rationale
can never be an adequate basis to work from home even “in the [unknown] future, ”90 the
same is not true of their preferred secular rationale for permitting work from home. See,
e.g., Alabama Association ofRealtors, etal. v. Department of Health and Human Services,
et al., 594 U.S.__,__(slip op.) at 8 (August 26, 2021) (“It is indisputable that the public
has a strong interest in combating the spread of the COVID-19 Delta variant.”).91

88

Formal or informal, the very potential for granting exemptions, Fulton makes
clear, is the problem; and an informal system depending even more on Respondents’
arbitrary discretion poses an even greater threat of religious discrimination. See Fulton,
(slip op.) at 10; Axson-Flynn v. Johnson, 356 F.3d 1277, 1299 (10th Cir. 2004) (“If we
were to require the plaintiff to show that the ‘system of individualized exemptions’ was
contained in a written [formal] policy, we would contradict the general principle that
greater discretion in the hands of governmental actors makes the action taken pursuant
thereto more, not less, constitutionally suspect.” (citing Cantwell v. Connecticut, 310 U.S.
296, 305 (1940))).
Stated simply, this Court’s “concern [i]s the prospect of the
government’s deciding that secular motivations are more important than religious
motivations, ” Fraternal Order, 170 F.3d at 365, and that is precisely what Respondents
have done here—and in the absence of relief, would be permitted to continue to do.
89
App. 86-87; App. 71
10 & 11; App. 4 15-17; App. 31.
90
App. 31.
91
See also, e.g., Severe COVID Cases Hit ‘Troubling ’ 4-Month High as Delta Fuels
Back-to-School
NBC
(September
Fears.
2021),
9.
https://www.nbcnewvork.com/nevvs/coronaviriis/nv-reports-highest-single-dav-coviddeath-toll-in-inonths-as-delta-drives-back-to-school-worries/3260499/
(“Both
24

Stated simply, this Court’s “concern [i]s the prospect of the government’s
deciding that secular motivations are more important than religious motivations,” see
Fraternal Order, 170 F.3d at 365, and that is precisely what Respondents have done
here—and in the absence of relief pending appeal, would be permitted to continue to do.
In Tandon, this Court made clear that “even if the government withdraws” a
policy that burdens free exercise, a movant “otherwise entitled to emergency injunctive
relief remain[s] entitled” when he “remain[s] under a constant threat” the government
will use its “power to reinstate the challenged restriction^” on free exercise. 141 S. Ct.
at 1297 (citing Diocese ofBrooklyn, 141 S. Ct. at 68) (emphasis added). Here, Applicant
remains not only under a “constant threat” of free exercise burden:

The burden

Respondents impose on Applicant’s free exercise has never ended—and was increased
by 100% on August 2—let alone the discriminatory policy resulting in the burdening
actually “withdraw[n].”92 See id.. Therefore, this Court’s concern that the government
will engage in religious discrimination is plainly actualized here nonetheless. See, e.g.
Fulton, (slip, op.) at 10; Tandon, 141 S. Ct. at 1296-97; Fraternal Order, 170 F.3d at 365.
In addition, regardless of their treatment of others for secular reasons,
Respondents intentionally discriminated against religion on May 12, explicitly and
categorically singling out religion for disfavored treatment, as never an adequate basis to
permit work from home.93

This “decision to provide medical exemptions while

[categorically] refusing [a] religious exemption[] is sufficiently suggestive of
discriminatory intent.” See Fraternal Order, 170 F.3d at 365.

Respondents’

discriminatory intent has continued from that decision until this day—it does not cease to

hospitalizations and deaths in the Garden State are at four-month highs, as are the number
of COVID patients on ventilators and in ICUs [as of] Wednesday [September 8, 2021].”).
92
App. 31 (stating Respondent’s policy of categorically discriminating against a
religious accommodation even “in the future”).
93
App. 31.
25

exist simply because Respondents have decided to treat others differently for secular
reasons94—and is shockingly evident even in their briefing.95
D. Respondents do not even come close to passing strict scrutiny—or any
form of scrutiny.
“[S]trict scrutiny requires the State to further interests of the highest order by
means narrowly tailored in pursuit of those interests. That standard is not watered down;
it really means what it says.” Tandon, 141 S. Ct. at 1298 (quoting Lukumi, 508 U.S. at
546) (cleaned up). But not only does Respondents’ discrimination fail to pass that
exacting form of scrutiny to which it is subject: “The [government] has not offered any
interest in defense of its policy that is able to withstand any form ofheightened scrutiny.”
See Fraternal Order, 170 F.3d at 366 (emphasis added). Respondents’ totally-untailored
and unlawfully-motivated religious discrimination cannot pass even rational basis review.
(1)

Respondents’ putative interests are far from compelling.

To attempt to justify their religious discrimination, Respondents assert only the
vaguest interests, not backed by any concrete fact or specific example: The rationale they
“st[ood] by” to justify their religious discrimination96 consists of a single paragraph of
vague assertions97 stated only at a “high level of generality.” See, e.g., Fulton, (slip op.)

94

Importantly, Applicant is “not asking for preferential treatment.” See Tenafly
Eruv, 309 F.3d at 169. Applicant “ask[s] only that [Respondents] not invoke a[]
[categorically discriminatory policy against religious rationales for working from home]
from which [Respondents’ preferred secular rationales] are effectively exempt.” See id.
In other words, Applicant asks that Respondents maintain neutrality and accord
Applicant’s religious reasons for working from home the same consideration they accord
their preferred secular reasons for working from home. See id. Because Respondents
judge secular medical rationales as adequate to permit work from home, even widely for
prolonged periods, see supra, note 14, the First Amendment bars them from categorically
judging as inadequate Applicant’s religious rationale for working from home unless they
pass strict scrutiny. See, e.g., Fulton (slip op.) at 8; Fraternal Order, 170 F.3d at 366-67.
95
See supra, note 72.
96
App. 47.
97
App. 31-32.
26

at 13-14 (“The [government] states [its] objectives at a high level of generality, but the
First Amendment demands a more precise analysis.” (emphasis added)); Mast v. Fillmore
Cnty., 594 U.S.

__(Gorsuch, J., concurring) (slip op.) at 4 (July 2, 2021) (cogently

laying out this crucially important point of analysis). To this day, Respondents have
provided zero individualized consideration of Applicant’s religious request.98 See, e.g.,
Fulton (slip op.) at 14 (“The question ... is not whether the [government] has a
compelling interest in enforcing its . . . policies generally, but whether it has such an
interest in denying an exception to [.Applicant in particular]”). Furthermore, Applicant
has debunked each of Respondents’ putative interests—repeatedly.99 Again:
•

Respondents’ vaguely assert that “emergent matters that arise may require
immediate response that would necessitate [Applicant’s] presence in the
office. 5:100
o Applicant responds with undisputed testimony under penalty of perjury:
“[T]here has never been an emergent matter that necessitated my immediate
physical presence in the office. 1 am not [even] sure what such a hypothetical
scenario would be like. 55 101 Respondents conceptualize this interest at such a
high level of generality, so unconnected from Applicant in particular, that
apparently they claim only that it applies in Applicant’s “line of work. ::102

98

See App. 31-32 & 117-20 (providing Respondents’ only rationale for religious
discrimination at a very high level of generality, without attempting to connect it to
Applicant’s employment in particular, and without addressing the factual inconsistencies
between their general rationale and Applicant’s employment in particular); App. 223.
"
See, e.g., App. 35-39; App. 7-14 35-65; App. 70-71 ffl[ 3-9 & 17; App. 63-65;
App. 134-39; App. 200-203; see also App. 63 nn. 5 & 6.
100
App. 31; see also App. 119 U 8 (vaguely referring to “emergent matters”).
101
App. 70 4. To this day, Respondents have never explained their “emergent
matter” assertion with a single concrete fact or specific example.
102
App. 98-99.
27

•

Respondents vaguely assert that “in person courtroom appearances will resume
at some point in the future” and “[i]n person witness interviews are preferred over
those conducted remotely. »103
o Applicant responds with undisputed testimony under penalty of perjury: “I
am, and have always been, fully willing to be physically present for anything
required by my job responsibilities—including, for instance, in-person court
appearances, witness interviews, or any other obligation;” praying at home
“has never interfered in my work. 53 1 04 There is no dispute that Applicant’s job
responsibilities may require him to be physically present for such
obligations,105 and Applicant has always been physically present for all of
them—including during weeks he was scheduled to work from home.106

•

Respondents vaguely assert that some “meetings are not pre-scheduled and
occur on an ad hoc basis” and that “collaboration]” is sometimes necessary. 107
o Applicant responds with undisputed testimony under penalty of perjury:
“[A]ny ‘ad hoc’ meetings conducted in person in the office have been
indistinguishable from any ‘ad hoc’ meetings conducted over the phone from
home. 33 108 Further, “ad hoc” meetings on work topics “are rare;.33 109 and.
anyway, Respondents have “utterly fail[ed] to explain why permitting
[Applicant] to participate

in potential

103

meetings

[or collaboration]

App. 31.
App. 71 m 9 & 17.
105
App. 12-13 ^ 62(a); App. 35 (“[I]n-person courtroom appearances were the first
example [Applicant] provided at the May 6 meeting [see App. 3 ]fl[ 11-12] of a
circumstance in which all would agree that physical presence is reasonably necessary.”).
106
App. 71 | 17; App. 37 (“[F]or instance, [Applicant] was scheduled to work from
home but physically present to observe witness interviews on March 11, and March 25,
2021.”).
107
App. 31.
108
App. 70 f 5; App. 36-37.
109
App. 8 f 38; see also App. 37 n.2.
104

28

telephonically ... would impose an undue hardship ... [or] even a de minimis
burden on [Respondents]. wllO
•

Respondents vaguely assert that “[i]t is anticipated that [the] workload will . . .
increase. »ui
o Applicant responds: “[A] vague observation about what is ‘anticipated’”
cannot justify categorical religious discrimination “at the present time. »112

•

Respondents vaguely assert regarding nondescript people that “department
heads . . . had been taking on many of the responsibilities of assistant
prosecutors. jj113
o Applicant responds unequivocally: Applicant “is not aware of a single
occasion on which a ‘department head,’ or anyone, ‘took on’ any of his job
responsibilities, nor do [Respondents] identify even one such occasion. »114

•

Respondents’ vaguely assert that categorically prohibiting Applicant a religious
work-from-home accommodation is “vital to his growth and development as a
trial lawyer” because he must “observe colleagues at other trials. «U5
o Applicant responds unequivocally: Applicant “is not aware of a single
occasion on which [Respondents] (or [Applicant’s] supervisor) requested that

no

App. 13 U 62(b); see also App. 8 TJ 39 (stating without contradiction that electronic
methods of meeting are “efficient or even seamless; and, in fact, [were] [Respondents]’
chosen method of meeting on May 6 to discuss the [religious] request, and ha[ve] been
[Applicant’s supervisor’s chosen method of meeting during weeks [Applicant] is
working from home or even when working in the office”).
Although Respondents have provided zero examples—they are, in fact, rare—
Applicant recognizes that in-person meetings are sometimes reasonably necessary. See,
e.g., App. 136 n.15. As reiterated multiple times herein: Applicant is “fully willing to
be physically present for anything required by [his] job responsibilities.” App. 71^9.
in
App. 32.
112
App. 38.
113
App. 118 T1 5.
114
App. 201 (quoting App. 137).
115
App. 119 U 8.
29

[he] observe another attorney’s trial—nor would [he] have objected to doing
so had [Respondents] made this request. 55 1 16
“There can be no serious claim that those interests justify” categorical discrimination
against Applicant’s religious practice. See, e.g., Lukumi, 508 U.S. at 547. Moreover,
Respondents’ only attempts at providing evidence in support of those non-interests are (i)
a press release; and (ii) the deficient certification of one defendant,117 which, as explained
above, re-asserts only vague interests at only a high level of generality. 118
It is worth repeating: Respondents offer not a single concrete fact or specific
example in support of their discrimination. On each putative interest, Respondents
make only a vague assertion at an impermissibly high level of generality, without even
attempting to connect it to Applicant’s employment specifically, see Fulton, (slip op.) at
13-14; Applicant debunks it with a clear explanation and citation to evidence “without

116

App. 137; see also App. 71^9. Notably, these latter two “department heads” and
“professional development” interests were absent from the putative rationale
Respondents “st[oo]d by” previously. See App. 31-32; App. 47. Respondents also
vaguely reference “effectiveness decline” or “lack of availability” in their briefing. App.
104. Applicant thoroughly refuted this oblique attempt at an argument below. See App.
138 (“Defendants have . . . apparently chosen to remain willfully ignorant of information
known by Plaintiffs supervisor regarding Plaintiffs excellent availability and efficiency
when working from home. For instance, when working from home, Plaintiff‘completed
assignments so quickly and thoroughly that it has surprised’ his supervisor. And
Plaintiffs availability when working from home—e.g., the frequency and speed with
which he answers work related phone calls; his exemplary average response time to email
communications; and his willingness to take on, or even volunteer for, and complete any
assignment at any time, even outside of working hours—has always been exceptional.
[]For instance, while being permitted to work from home, [he] ha[s] volunteered
additional assistance many times; ha[s] expressly remarked that [he] [is] happy to take
more work; and ha[s] completed assignments so quickly and thoroughly that it has
surprised [his] supervisor.” (quoting App. 39 n.4) (internal citations omitted) (footnote
omitted)); see also App. 223 (confirming that these factual allegations are uncontested).
117
See supra, note 39.
118
Compare, e.g., App. 119 ^ 8 (vaguely appealing, not under penalty of perjury, to
“emergent matters”), with App. 70 TJ 4 (declaring under penalty of perjury that “there has
never been an emergent matter that necessitated [Applicant’s] immediate physical
presence in the office” and that it is not clear what one “would be like”).
30

contradiction,” see Diocese of Brooklyn, 141 S. Ct. at 66;119 and Respondents fail to
respond with anything but more vague, generalized assertions—let alone a shred of
evidence to the contrary. “Such speculation is insufficient to satisfy strict scrutiny.” See
Fulton (slip op.) at 14. Respondents plainly have “not demonstrated . . . that, in the
context of [Applicant’s religious request], [their] governmental interests are compelling.”
See, e.g., Lukumi, 508 U.S. at 546.
If Respondents’ vague putative interests in categorically discriminating against
religion could have potentially been found persuasive, Respondents’ own admissions
foreclose that possibility—three times over.

120

First, Respondents expressly

acknowledge that only in certain circumstances, and not always, are employees “required
to be in the office;” whether they are is “based on the needs of the office. 55121 Second,
Respondents would generally permit Applicant to be physically out of the office to range
“a four hundred (400) acre [public park] ... so long as it does not adversely impact [his]
work responsibilities,”122 but never permit Applicant to be out of the office to work at his
nearby home,123 where he can actually pray and work in peace, 124 on the very same
condition. This nonsensical “accommodation” alone refutes Respondents’ entire
position. And, third, Respondents recognize that for secular reasons they already widely
permitted the accommodation Applicant is seeking for religious reasons.125 In other
words, Respondents themselves have “demonstrated that [they] ha[ve] at [their] disposal
an approach” that would efficiently, if not easily, accommodate Applicant’s free exercise:

119

See supra, note 99.
See App. 9-10 43-50.
121
App 30; App. 9 f 45; see also App. 25 (specifying that Applicant does not seek
accommodation for times when it would “cause undue hardship” for Respondents).
122
App. 32.
123
App. 31.
124
App. 71 UH ? & 17.
125
App. 86-87; App. 71 fl 10 & 11; App. 4 ^ 15-17; see supra, note 79; App. 223.
120

31

treat his religious rationale for working from home the same as their preferred secular
rationales for workingfrom home. 126 See Hobby Lobby, 134 S. Ct. 2782.
Accordingly, the Court should be “at a loss to understand” why permitting all
employees to work from home for secular reasons fulltime for prolonged periods—or
permitting Applicant to range 400 acres at will during work hours—does not “threaten
important. . . interests,” but permitting a single employee to work at home as necessary
to pray does, and allegedly always does: “[T]here is no apparent reason why permitting
[Applicant to work from home at least sometimes] for religious reasons should create any
greater difficulties” than permitting many others to work from home for prolonged
periods for secular reasons. See, e.g., Fraternal Order, 170 F.3d at 366-67.
(2)

Respondents’ chosen method of advancing their putative interests is
totally untailored.

Respondents have categorically refused to permit Applicant to engage in his
prayer practice at any time during all working hours and even “in the future”—the exact
opposite of narrow tailoring.127 Respondents’ vague interests, if even extant, “could be
achieved by narrower [rules] that burdened religion to a far lesser degree.” See, e.g.,
Lukumi, 508 U.S. at 546. For instance, Respondents could simply treat Applicant and his
religious rationale for working from home the same as they treated all employees and
their secular rationale for working from home—as Applicant himself requested. 128 This

126

See, e.g., supra, note 14.
App. 10-11 H 54 (stating without contradiction that Respondents have refused to
permit even “one day, hour, or minute” of work from home as necessary to accommodate
prayer); App. 31 (making clear that Respondents categorically refuse to accommodate
Applicant’s prayer practice even “in the future”).
128
See, e.g., App. 27 (requesting that the “status quo” that permitted work from home
for secular reasons “continue” for Applicant’s religious reasons); App. 51 (making clear
that Applicant is requesting “the very same accommodation” Respondents granted widely
for secular reasons); App. 131 (same); App. 142 (“[Applicant] seeks only the exact same
accommodation that was extended to employees for secular reasons for more than a
127

32

is one among “many other less restrictive rules” Respondents could use instead of
categorical religious discrimination. See, e.g., Diocese ofBrooklyn, 141 S. Ct. at 67.
“[N]arrow tailoring requires the government to show that measures less restrictive
of the First Amendment activity could not address its interest.” Tandon, 141 S. Ct. at
1296-97. Yet Respondents have “made no effort to determine when [accommodating
Applicant’s religion] would cause undue hardship or when it would not: They simply
asserted, categorically, that it always does.

129

Respondents “must do more than assert

that certain risk factors are always present in [working from home as necessary to pray]
or always absent from [working from home for secular reasons].” See Tandon, 141 S. Ct.
at 1296. They have failed. See id.
Respondents’ failure to tailor their discrimination here is equivalent to, if not
much worse than, the government officials’ failure in Fraternal Order, which is on all
fours with this case.

130

In Fraternal Order, the Court of Appeals rejected even physical

year”); App. 155 at 6:7-10 (same); App. 171 at 22:3-4 (“I am seeking simply the same
exact accommodation that was extended to people for secular reasons.”).
129
App. 10-11 HI] 53-54.
130
See App. 61-62. Below, Applicant repeatedly cited and analyzed Fraternal Order,
a precedent binding in the Third Circuit, in support of the original motion for preliminary
relief. See, e.g., App. 17-18, 56-68, 125-28, 139, 141, 145 n.21, 147, 159 at 10:18-21,
165 at 16:12-14 & 167 at 18:9-14. But neither in their briefing nor at oral argument on
the preliminary injunction motion did Respondents cite Fraternal Order even one time.
See, e.g., App. 84. And the District Court did not so much as mention this precedential
case in its ruling. See generally App. 172-77 at 23:5-28:11. It was unclear whether the
District Court might have vaguely attempted to distinguish the case based on the fact that
it did not happen to arise during a pandemic. See App. 175 at 26:2-9 (asserting “that this
was a pandemic that existed” and that Respondents’ exercises of discretion related to
employee scheduling have generally been related to that secular medical rationale). But
it is well recognized that “even in a pandemic, the Constitution cannot be put away and
forgotten.” Diocese of Brooklyn, 141 S. Ct. at 68; see, e.g., Carson v. Simon, 978 F.3d
1051, 1060 (8th Cir. 2020) (“There is no pandemic exception to the Constitution.”); Tex.
League of United Latin Am. Citizens v. Hughs, 978 F.3d 136, 145 n.7 (5th Cir. 2020)
(same); Berean Baptist Church v. Governor Roy A. Cooper, III, 460 F.Supp.3d 651
(E.D.N.C. 2020) (same). And, anyway, Respondents’ decision to discriminate
categorically against religion now and even “in the future” has no discernable
relationship to any pandemic. See, e.g., App. 31.
33

safety—“undoubtedly an interest of the greatest importance”—as a satisfactory rationale
for the government’s discrimination because the government’s “policy w[as] not tailored
to serve that interest.” 170 F.3d at 366-67; see Diocese of Brooklyn, 141 S. Ct. at 67
(enjoining government regulations that burdened religious practices even though the
regulations were allegedly designed to “[s]tem[] the spread of COVID-19”—an
“unquestionably a compelling interest”—because they were not “narrowly tailored”).
Yet, as explained above, Respondents’ vague putative interests are far weaker than safety
and they have failed to tailor their discrimination at all: Respondents have refused to
permit Applicant to work for home for religious reasons during even “one day, hour, or
minute 55131 —now or “in the future. 55 132 See, e.g., Fulton (slip op.) at 14 (rejecting
government officials’ unsupported contention that their policy “can brook no departures”).
To call this discriminatory policy choice tailored to any extent would be doublespeak.133
Here, then, “[t]he absence of narrow tailoring suffices to establish the invalidity” of
Respondents’ discriminatory policy. See, e.g., Lukumi, 508 U.S. at 546.
(3)

Respondents’ discrimination would not pass even rational basis.

Respondents’ argued below that rational basis applies and did not consider the
obvious alternative.134 It is clear, however, that rational basis does not apply here:
Applicant has shown in no less than six ways, clearly identified by this Court’s
precedents, how Respondents’ discrimination triggers strict scrutiny. See, e.g., Fulton
(slip op.) at 13; Tandon, 141 S. Ct. at 1296; Diocese of Brooklyn, 141 S. Ct. at 67;

131

App. 10-11 1111 53-54.
App. 31.
133
Respondents may attempt to argue that they have tailored their categorically
discriminatory policy by “offering” Applicant “accommodations.” See App. 32; supra,
note 42. But because the undisputed factual record shows that these “accommodations”
burden Applicant’s prayer practice all the same, see App. 71 HU 13 & 15; App. 11-12 HU
55-59; App. 143-45, it is not clear whether the “accommodations” are even relevant now.
See Fulton (slip op.) at 5; Tenafly Eruv, 309 F.3d at 170; Blackhawk, 381 F.3d at 212.
134
See App. 95-96 (omitting any argument on strict scrutiny).
132

34

Masterpiece, 138 S. Ct. at 1731; Lukumi, 508 U.S. at 546; Thomas, 450 U.S. at 718; see
also, e.g., Blackhawk, 381 F.3d at 212. But Respondents’ discrimination would not pass
muster even under the highly-deferential standard they wish applied here: Respondents
have not cited a single fact in support of the proposition that they have a legitimate interest
in categorically prohibiting Applicant’s prayer practice even “in the future .55135 and there
is no rational relationship—at least not one explained by Respondents136—between the
maximally discriminatory policy Respondents have chosen and their putative interests.
See, e.g., Cleburne v. Cleburne Living Center, Inc., 473 U.S. 432, 446 (1985) (“The State
may not rely on a classification whose relationship to an asserted goal is so attenuated as
to render the distinction arbitrary or irrational.”).
Moreover, Respondents’ policies and positions are shot through with
inconsistencies,137 and are motivated by unlawful intent. See, e.g., Romer v. Evans, 517
U.S. 620, 633 (1996). Respondents’ unlawful intent—which independently suffices to
show they cannot pass rational basis—is evident in their May 12 memorandum, which
“discriminate^] on its face” and singles out religion for maximally intolerant treatment.
See, e.g., Lukumi, 508 U.S. at 533; see also, e.g., Fraternal Order, 170 F.3d at 365 (“[The]

135

See App. 31-23; App. 117-20.
See, e.g., App. 13 H 62(b) (observing that Respondents “utterly fail[] to explain
why permitting Plaintiff to participate ... telephonically (or through Teams, etc.) in order
to accommodate [his] religious need would impose an undue hardship”—or any burden
at all—on Respondents); App. 35-39.
137
For example, Respondents asserted that they cannot accommodate Applicant’s
religious practice at all, neither now nor “in the future,” App. 31, despite granting the very
accommodation Applicant was seeking—at the very time Applicant was seeking it—to
others for secular reasons, App. 87; App. 71 ffl[ 10 & 11; App. 4
15-17; App. 117-18.
Another example that leaps off the page is the first sentence of Respondents’ oneparagraph putative rationale for their religious discrimination: “It is the nature of the
work performed by the [Essex County Prosecutor’s Office] that individuals be physically
present in the office.” App. 31. If this assertion were accurate, it would mean that all of
Respondents’ employees working from home either performed no work or performed no
work “in the nature” of their employment. The assertion is nonsense and even
disrespectful to the many employees who have worked hard, even overtime, from home.
136

35

decision to provide medical exemptions while [categorically] refusing [a] religious
exemption^ is sufficiently suggestive of discriminatory intent.”)- Again, Respondents’
hostility to religion is evident even in their briefing below. 138
In no world does Respondents’ totally untailored discrimination against religion
pass constitutional muster. The lower courts had “a duty to conduct a serious examination
of the need for such a drastic” restriction on free exercise as that imposed by
Respondents. 139 See Diocese of Brooklyn, 141 S. Ct. at 68; see also, e.g., Lukumi, 508
U.S. at 534 (“The Court must survey meticulously the circumstances of governmental
categories

”). Yet the lower courts here apparently conducted virtually no

examination and in their rulings cited neither the record nor any source of law even one
time. 140 The “failure to grant an injunction pending appeal was erroneous.” See, e.g.
Tandon, 141 S. Ct. at 1296; see also, e.g., Gonzales v. O Centro Espirita Beneficente
Uniao do Vegetal, 546 U.S. 418 (2006) (Applicant “must be deemed likely to prevail.”).
II.

The equities weigh strongly in favor of granting injunctive relief.
A. Respondents’ burdening of Applicant’s free exercise will continue to cause
irreparable harm absent injunctive relief.
A person is “irreparably harmed by the loss of free exercise rights ‘for even

minimal periods of time.’” Tandon, 141 S. Ct. at 1297 (emphasis added) (quoting
Diocese of Brooklyn, 141 S. Ct. at 67). Respondents’ discriminatory policy burdens
Applicant’s free exercise not only for minimal periods of time, but all day on every work
day, categorically and permanently, even “in the future. 55 141 .Absent injunctive relief,
Applicant will continue to be “forced to forgo [his] prayer practice” by Respondents

138
139
140
141

See, e.g., App. 90, 91 & 102; App. 8; supra, note 72.
See App. 31.
See App. 172-77 at 23:5-28:11; App. 248-49.
App. 31.
36

during “every work day. »142 « There can be no question that the challenged restriction[]”
causes and “will [continue to] cause irreparable harm.” See, e.g., Diocese of Brooklyn,
141 S. Ct. at 67; id. at 68-69 (recognizing that emergency relief is warranted even when
free exercise applicants “bear [only] the risk of suffering further irreparable harm”
(emphasis added)). 143
In addition to the clarity of the definition of irreparable harm in this Court’s
precedents, Respondents’ themselves apparently concede the point: “The harm allegedly
suffered by [Applicant] ... is difficult, if not impossible, to quantify and thus even more
challenging to remedy. 55144 Applicant respectfully submits that he does not already have
a finding on this factor solely because the District Court did not properly apply this
Court’s precedents—declining to cite any precedent even one time—and instead
inexplicably found that it “do[es]n’t feel” there is irreparable harm here.145
B. The balance of hardships and public interest also clearly weigh in favor of
granting this Application.

142

App. 71 f 13. In addition, there is a fast-approaching time at which Applicant will
be unable to offset this irreparable harm on at least some work days. See App. 73
(recognizing that Applicant’s dwindling sick and vacation days “will run out”).
143
Diocese of Brooklyn also makes clear that government-proposed substitutes for
free exercise cannot be used to negate a finding of irreparable harm. See Diocese of
Brooklyn, 141 S. Ct. at 67 (recognizing, e.g., that “remote viewing is not the same as
personal attendance”); see also, e.g., App. 32 (Respondents proposing that instead of
engaging in his prayer practice, Applicant commute to and from a public park multiple
times each day or be confined to a windowless room fitted with surveillance cameras).
144
App. 88. Among many other fallacious arguments, Respondents argued below
that their religious discrimination “does not cause [Applicant] irreparable harm” because
“he was able to work full time in the office” before the pandemic. See, e.g., Hobbie v.
Unemployment Appeals Commission, 480 U.S. 136, 144 (1987) (making clear that “[t]he
timing” of when an employee chooses to begin engaging in a religious practice “is
immaterial” to determining whether an employer burdens his free exercise and causes
him irreparable harm). Despite Applicant’s citations to it, Respondents never addressed
Hobbie in the District Court; and other than Smith on one page in passing (App. 95), it
seems Respondents’ briefing did not cite any of this Court’s religious liberty precedents.
145
See App. 176 at 27:3-7.
37

When the government is the party opposing a preliminary injunction, the
balancing and public-interest factors merge. Nken v. Holder, 556 U.S. 418, 435 (2009).
The balancing factor focuses on the “effect on each party of the granting or withholding
of the requested relief.” Winter, 555 U.S. at 24. On Applicant’s side, the effect of
withholding relief is and would continue to be devastating: As he repeatedly informed
Respondents and the lower courts, being required to forgo his prayer practice causes him
not only the irreparable harm of burdened free exercise, but also harm and suffering on
multiple additional levels.146 Respondents unnecessarily and inhumanely upended the
status quo between the parties and increased these harms by 100% on August 2,
prompting the original application for preliminary relief. 147
On the public’s side, as shown by the above analysis of Respondents’ putative
interests, it is not clear what harm, if any, would follow if the Court were to grant relief.
Despite Respondents’ vague assertions,148 they have not identified a single concrete fact
or specific example—let alone provided actual evidence in support of one—that suggests
the public would suffer even a small cost or harm if they permitted Applicant to work
from home as necessary to pray. See, e.g., Tandon, 141 S. Ct. at 1296 (ruling unavailing
even government officials’ arguments that granting relief pending appeal would lead to
hospitals being overwhelmed because the arguments were not adequately supported).
Respondents’ foremost argument on this factor below was that permitting
Applicant to work from home as necessary to pray would be “harmful to public interest”
because Applicant would not “adequately develop professionally. n 149 Respondents,

146

App. 71 T| 16; App. 6 f 25; App. 39 (“I suffer and am unable to focus on and
complete work efficiently when denied the opportunity to pray.”); App. 73 (“It is
spiritually and psychologically painful.”).
147
App. 51.
148
App. 31-32; App. 117-20.
149
App. 104-05.
38

however, cannot speculate and “assume the worst” simply because Applicant is seeking
a religious accommodation. See Tandon, 141 S. Ct. at 1297; Sherbert, 374 U.S. at 407.
Yet an assumption of the worst is exactly what Respondents’ speculative assertion
reduces to. 150 Furthermore, being forced to forgo his prayer practice severely hampers
Applicant’s professional development and wellbeing on multiple levels.151
If any “public consequences” would result from granting temporary relief, see
Winter, 555 U.S. at 24, they would be good consequences: “[IJt is always in the public
interest to prevent the violation of a party’s constitutional rights,” see Am. Bev. Ass’n v.
City and Cty. ofS.F., 916 F.3d 749, 758 (9th Cir. 2019) (en banc) (emphasis added); “the
public interest clearly favors the protection of constitutional rights,” Tenafly Eruv, 309
F.3d at 178. At the very least, “it has not been shown that granting th[is] application^
will harm the public,” which has sufficed to support an application for equivalent relief
sought in this Court. See Diocese ofBrooklyn, 141 S. Ct. at 68.
Even the public’s compelling interest in “[sjtemming the spread” of a virus
during a pandemic, cannot justify totally untailored religious discrimination like
Respondents’. See, e.g., id. at 67 (emphasis added); Fraternal Order, 170 F.3d at 36667. But permitting Applicant to work from home as necessary to pray would actually
advance the public’s interest in stemming the spread of viruses during this pandemic. See,
e.g., Alabama Association, (slip op.) at 8; supra, note 91. Even though Respondents used
this putative interest to suspend the requirement that “all employees” report physically to
work for prolonged periods,152 they have apparently given it zero weight in their
calculated decision to discriminate against Applicant’s religious practice.

150

See also App. 92 (“anticipating]” that “remote work is insufficient”); App. 35 &
38 (explaining that vague “anticipation” and speculation about “some point in the future”
cannot justify Respondents’ categorical religious discrimination).
151
App. 71 K 16; App. 6 ^ 25; App. 39; App. 73.
152
See supra, note 14.
39

III.

In the alternative, the Court should grant certiorari before judgment or
summarily reverse.
In the alternative to entering an injunction pending appeal, Applicant respectfully

submits that the Court should grant certiorari before judgment in the Court of Appeals
and enjoin Respondents’ religious discrimination pending disposition by this Court. See
28 U.S.C. § 2101(e). Or this Court should summarily reverse for the reasons it did in
Mast. See 594 U.S. at__(slip op.) at 1 (Alito, J., concurring) (recognizing that the lower
courts “plainly misinterpreted and misapplied” the relevant legal provisions protecting
religious liberty); id. (slip, op.) at 1-7 (Gorsuch, J., concurring) (“highlight[ing] a few
issues” the lower courts inexplicably disregarded in this case).
CONCLUSION
Although free exercise is expressly protected by the second clause of the First
Amendment to the highest law of the land, some government officials would relegate it
to the status of a footnote in a bureaucratic memorandum—if they see fit to mention it at
all. Here, Respondents’ discriminatory “value judgment that secular (i.e., medical)
motivations ... are important enough to overcome [their] general interests] . . . but that
religious motivations are not,” and never are, cannot be permitted to stand and continue
to inflict irreparable harm on Applicant pending appeal. See Fraternal Order, 170 F.3d
at 366. Accordingly, Applicant respectfully requests that the Court temporarily enjoin
Respondents from continuing to burden Applicant’s free exercise; alternatively grant
certiorari before judgment and similarly enjoin Respondents; or summarily reverse.
Dated: September 29, 2021

Respectfully submitted,
/s/ Alex G. Leone
Alex G. Leone
P.O. Box 1274
Maplewood, New Jersey 07040
aleone@jdl6.law.harvard.edu
(973) 327-3970
40

